                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDUM

 Case Number: AI0090074                                                                 Page 1 of 1



                 During a separate investigation, NSF 010 discovered plagiarized material in one annual
                  l
         report and several proposals. 2    Although multiple materials contained plagiarism, when
         examined independently, the annual report and proposals contained a small amount ofplagiarism
         which was not considered a significant departure from accepted practice. Thus, we have
         informed the P1 3 and co-P1s4 that future annual reports and proposals submitted to NSF must
         properly acknowledge those persons who have contributed ideas or text to the proposal. No
         further action is warranted.



                      This case is closed with no further action taken.




NSF OIG FOl1ll2 (11/02)
